Semiannual Report
 to the Congress
October 1, 1992 - March 31, 1993




   U.S. General Services Administration
        Office of Inspector General
        Foreword

This report summarizes the Office of Inspector General's
(OIG) activities between October 1, 1992 and March 31,
1993. During this period, OIG resources have focused on
matters of significant concern within GSA. I would like to
highlight several accomplishments that are important to both
the OIG and GSA.
During this period, a computer manufacturer agreed to pay
$14.8 million to settle its potential civil liability under the
False Claims Act. This is the second largest civil settlement
achieved in connection with a single case involving the GSA
OIG.
As part of a President's Council on Integrity and Efficiency
effort, the GSA OIG led a multi-agency review of employee
relocation practices and procedures. We advised
management of the need to establish a council to ensure that
employee relocations are managed effectively and efficiently.
Also during the period, we issued 1 73 preaward contract
audit reports to Agency officials. These reports evaluated
$1.3 billion in potential Government-wide expenditures for
space, supplies, materials, and services, and contained over
$127 million in financial recommendations.
Our internal audits examined the efficiency, effectiveness,
and integrity of GSA programs and operations and resulted
in 84 reports to management which included
recommendations for improvement. For example, internal
reviews advised management of the need to improve security
and fire safety practices at two computer facilities.
I want to take this opportunity to thank the GSA
Administrator and Members of Congress for their
unwavering support. I also want to commend the
contributions of each OIG employee to our achievements
during the past 6 months.



WILLIAM R. BARTON
Inspector General
April 30, 1993
               Summary of OIG Performance

                      Total Financial Recommendations                   $134,178,757
OIG Accomplishments
                      ..   Recommendations That Funds Be
                           Put to Better Use                            $127,549,880

                      ..   Questioned Costs                                $6,628,877

                      Audit Reports Issued                                   273

                      Investigative Referrals                                244




                      Management Decisions and Other
Results Attained      Savings Achieved                                  $174,487,487

                      Indictments and Informations                            15

                      Successful Criminal Prosecutions                        15

                      Civil Settlements/Judgments                             11

                      Contractors Suspended/Debarred                          75

                      Employee Actions Taken                                  34




                                                           Office of Inspector General iii
           Overview And Focus On OIG Activities

                    This report, submitted pursuant to the Inspector General Act oj 1978, as
                    amended, chronicles the activities oj the General Services
                    Administration's Office oj Inspector GeneraL It is the twenty-ninth Report
                    to the Congress since the appointment oJ GSA 's firs t Inspector GeneraL

Overview            Procurement Activities
                    Significant OIG audits and investigations resulted in:

                    ..   Civil fraud settlement agreements resulting in almost $19.8 million
                         in recoveries.

                    ..   Convictions of current and former GSA employees, and a former
                         manager of a freight consolidation carrier for receiving and giving
                         gratUities.

                    ..   Successful prosecution of a prospective lessor arising from a GSA
                         employee's allegation to the OIG of wrongdoing.

                    "    Evaluation of alternatives for proViding construction management
                         services.

                    Agency Operations
                    In a series of internal reviews, we advised management of the need to:

                   "     Ensure the accuracy of the space management information
                         system, and collect rent due from the tenant agency.

                    ..   Improve the operations and controls over the special order
                         program for tools.

                   ..    Improve security and fire safety practices at two computer
                         facilities.

                   ..    Establish a council to ensure that employee relocations are
                         managed effectively, efficiently, and economically.

                   "     Improve processing of health benefit insurance transactions.




                                                                  Office of Inspector General v
                 Overview And Focus On OIG Activities

                                    Prevention Activities
                                    OIG prevention activities included:

                                    to   Preaward reviews of 173 contracts with an estimated value of
                                         $l.3 billion.

                                    ..   Integrity awareness briefings of 340 GSA employees.

                                    to   Advisory reviews of 18 lease proposals aimed at heading off
                                         potential problems.

                                   This period, we continued to focus on areas highlighted in previous
Focus                              Reports to the Congress.

                                   Our fourth Consolidated Audit Highlights Report, covering Fiscal
                                   Year 1992 accomplishments, will be issued shortly. This annual audit
                                   summary report provides senior managers with information about
                                   broad concerns, and compares recent findings and observations with
                                   similar audit work completed in the previous fiscal year. It has been
                                   well received by GSA management because it points out issues which
                                   may warrant further attention. The document provides an overview of
                                   GSA activities and services, with a historical perspective, to managers
                                   regarding the effectiveness and potential vulnerabilities of their
                                   programs. As a result of past highlight reports, GSA management has
                                   formed task groups to address program effectiveness in leasing and
                                   major procurement activities, and targeted high risk program
                                   component areas for Federal Managers' Financial Integrity Act reviews.

                                   To better assist management, our audit program is concentrating more
                                   on broad program reviews to evaluate and recommend ways to improve
                                   major GSA activities. We are currently examining Federal Supply
                                   Service contracting, costing, and pricing actions associated with
                                   nationwide inventory stocking practices and operations. We are also
                                   looking at how the Office of FTS2000 can better procure and administer
                                   contract services and support its customers' needs. In addition, we are
                                   focusing attention on the Public Buildings Service contracts and related
                                   real property administration activities.

                                   The Multiple Award Schedule program seeks to provide significant
                                   savings to the Government on the purchase of common-use items for
                                   which individual purchasers do not have unique product speciflcations.
                                   GSA recognized that its efforts to correct identified weaknesses in the
                                   program have not yet been fully successful, and thus designated the
                                   program as a high risk area under the Federal Managers' Financial
                                   Integrity Act. We are continuing our efforts to assist GSA contracting
                                   officials through preaward pricing evaluation; by providing clarification
                                   and advice on the offeror's accounting, billing, and discounting




vi   Semiannual Report To The Congress
Overview And Focus On OIG Activities

        practices during negotiation sessions; and by performing postaward
        audits of contractors' adherence to contract pricing and administration
        requirements.

        Our review of GSA's competitive bid contract process to detect whether
        collusive bidrigging activity is present in contracting programs is still
        underway.

        Through our Total Quality Management program, we initiated several
        projects to study and recommend improvements to OIG operational and
        internal processes. Among these areas are continuing evaluations of
        employee recognition and performance standards, internal
        communications, and administrative and office services. We are also
        closely examining our internal operations to seek ways to "reinvent the
        OIG" by working smarter with fewer resources. We invited and received
        a number of suggestions and ideas from our staff members. Some ideas
        have already been implemented, and we are considering others, which
        include revisions to internal processes and procedures.

        We are continuing to carry out our responsibility for ensuring the
        annual audit of the Agency's financial statements as mandated by the
        Chief Financial Officers Act of 1990. For the past ~ years, the audit has
        been conducted by an independent certifled public accounting firm
        under the oversight of the OIG. Our office remains closely involved with
        this process.

        We have accomplished a great deal during this reporting period. We are
        seeing positive results from our efforts to streamline our operations and
        improve our service to GSA management, the Congress, and the
        American people.




                                                    Office of Inspector General vii
  Table of Contents

                                                                           Page

Overview and Focus on OIG Activities .............................. v
Organization, Staffing, and Budget .................................. l
Procurement Activities ..................................................... 3
Agency Operations ........................................................... 7
Prevention Activities ...................................................... 11
Review of Legislation and Regulations ............................ 15
Statistical Summary of OIG Accomplishments ............... 16


Appendices
Appendix I-Significant Audits from Prior Reports ........... 23
Appendix II-Audit Report Register .................................. 25
Appendix III-Delinquent Debts ...................................... .48
Appendix IV-Reporting Requirements ........................... .49




                                                 Office of Inspector General ix
               Organization, Staffing, and Budget

                      Pursuant to the Inspector General Act of 1978, an Office of Inspector
                      General was established within the General Services Administration on
                      October 1, 1978. As currently configured, the OlG consists of six units
                      thatfunction cooperatively to perform the missions legislated by the
                      Congress.

                      The OIG utilizes a functional organizational structure to provide
Organization          nationwide coverage of GSA programs and activities. It consists of:

                      ..   The Office of Audits, a multidisciplinary unit staffed with
                           financial and technical experts who provide comprehensive
                           coverage of GSA operations (internal or management audits) as
                           well as reviews of GSA contractors (external or contract audits).
                           Headquarters directs and coordinates the audit program, which is
                           performed by 14 field audit offices.

                      ..   The Office of Investigations, an investigative unit that manages a
                           nationwide program to prevent and detect illegal and/ or improper
                           activities involving GSA programs, operations, and personnel.
                           Headquarters coordinates and oversees the investigative activity of
                           12 field investigations offices.

                      ..   The Office of Counsel to the Inspector General, an in-house
                           legal staff that provides legal advice and assistance to all OIG
                           components. These attorneys also represent the OIG in connection
                           with litigation arising out of or affecting OIG operations, and
                           prepare OIG comments on proposed legislation.

                      ..   The Office of Administration, a centralized unit that provides
                           information systems support, handles budgetary, administrative,
                           and personnel matters, and formulates OIG comments on
                           proposed regulations and GSA policy issuances.

                      ..   The Office of Quality Management, an in-house staff that
                           promotes and coordinates the total quality process within all OIG
                           components, and coordinates quality improvement initiatives with
                           other Federal entities.

                      ..   The Internal Evaluation Staff, an analytical unit reporting
                           directly to the Inspector General that plans and directs an in-
                           house assessment program, including field office appraisals and
                           sensitive reviews of OIG operations.

                      The OIG is headquartered in Washington, DC, at GSA's Central Office
Office Locations      building. Field audit or investigations offices are maintained in Boston,
                      New York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
                      Francisco, Auburn, Cleveland, Los Angeles, and Washington, DC.




                                                                   Office of Inspector General   1
                    Organization, Staffing, and Budget

                                   The OIG started Fiscal Year 1993 with a total on-board strength of
Staffing and Budget                432 employees.

                                   The ~iG's approved Fiscal Year 1993 budget is approximately
                                   $34.7 million.




2   Semiannual Report To The Congress
                  Procurement Activities

                    GSA is responsible jor providing space jor almost 1 million Federal
                    employees. GSA, therejore, acquires buildings and sites, constructs
                   jacilities, and leases space as well as contracts jor repairs, alterations,
                    maintenance, and protection oj Government-controlled space. GSA also
                    operates a Government-wide service and supply system. To meet the
                    needs oj customer agencies, GSA contracts jor billions oj dollars worth oj
                    equipment, supplies, materials, and services each year. We review these
                   procurements on both a preaward and postaward basis to ensure that
                    the taxpayers' interests are adequately protected. We perform
                    approximately 500 reviews each year.


Significant OIG    $14.8 Million Civil Settlement
                   On March 4, 1993, a computer manufacturer entered into a civil
Accomplishments    settlement agreement with the Government to pay $14.8 million to
                   settle its potential civil liability under the False Claims Act. This is the
                   second largest civil settlement received in connection with a single case
                   involving the GSA OIG.

                   Ajoint audit and investigation was conducted when the company
                   voluntarily disclosed to GSA that it may not have complied fully with its
                   contractual obligations. Between 1980 and 1990, the firm substituted
                   reconditioned or remanufactured computer equipment for the new
                   equipment required by various Government contracts.

                   The settlement also resolved allegations that the company violated the
                   Buy American Act or Trade Agreements Act when it incorrectly certified
                   the country of origin of various products which it sold to the United
                   States Government during the same time period.

                   $5.0 Million in Civil Settlements
                   In addition to the $14.8 million civil settlement noted above, the
                   Government entered into three other settlement agreements. A
                   typewriter and photocopier supplier; a heating, ventilation, and air
                   conditioning contractor; and a distributor of scientific equipment
                   agreed to pay the Government almost $5.0 million to settle their
                   potential civil liability under the False Claims Act. The settlement
                   agreements were negotiated by representatives of the Department of
                   Justice and the GSA OIG.

                   Under the terms of the first agreement, a typewriter and photocopier
                   supplier agreed to pay $1.8 million. This agreement resulted from the
                   firm's disclosure that it had violated the defective pricing and price
                   reduction clauses ofits Multiple Award Schedule contracts from 1984
                   to 1989. The firm estimated that over the 4 year period, it had
                   overcharged the Government $505,490 as a result of its pricing
                   practices. A subsequent OIG audit and investigation disclosed
                   significant additional overcharges.




                                                                  Office of Inspector General 3
                               Procurement Activities

                                   The second agreement provided that a heating, ventilation, and air
                                   conditioning contractor, a construction quality management
                                   contractor, and an insurance bond company pay the Government
                                   almost $1.7 million to settle their potential civil liability. The agreement
                                   stemmed from an investigation which disclosed that the heating,
                                   ventilation, and air conditioning contractor, contrary to contract
                                   specifications, reused old ductwork and attempted to conceal it by
                                   applying fresh paint over portions of old ductwork. Also, the contractor
                                   misrepresented the amount of work performed. In addition, the
                                   construction quality management firm failed to conduct an adequate
                                   inspection of the contractor's work, and an insurance bond company
                                   refused to pay for the cost to repair and finish the work.

                                   Under the terms of the third agreement, a distributor of scientific
                                   laboratory equipment agreed to pay the Government $1.5 million. An
                                   OIG audit and investigation disclosed that the firm failed to disclose
                                   full pricing and discount information to GSA contracting officials. The
                                   firm sold items to commercial customers at discounts greater than
                                   those disclosed to GSA. GSA contracting officials relied upon these data
                                   and, as a result, the firm secured inflated prices from Federal
                                   purchasers. In addition to the settlement agreement, the company and
                                   two company officials pled guilty to various criminal violations. The
                                   company was ordered to pay a $200,000 fine and placed on 3 years
                                   probation, and the company officials were placed on probation.

                                   Bribery Convictions
                                   An OrG investigation resulted in the convictions of a GSA supervisory
                                   traffic management speCialist, a former GSA freight rate speCialist, and
                                   a former manager of a freight carrier for receiving and giving gratuities.
                                   The investigation was initiated when an official of a freight forwarding
                                   company alleged that a former GSA employee attempted to solicit a
                                   bribe.

                                   The investigators found that the freight forwarder and a freight carrier
                                   had provided gratuities to two GSA officials. In return, they were to
                                   direct freight shipments through a consolidation carrier. The use of this
                                   consolidation carrier resulted in an unnecessary service and allowed
                                   the freight carriers to bill for unneeded services.

                                   The GSA supervisory traffic management speCialist pled guilty to
                                   accepting a bribe. He was placed on 2 years supervised probation, fined
                                   $3,000, and ordered to perform 100 hours of community service. The
                                   former freight rate speCialist pled guilty to accepting a gratuity. He was
                                   placed on 3 years probation. The former manager of the freight carrier
                                   was sentenced for giving a gratuity to a public official. He was placed
                                   on 5 years probation, and ordered to make restitution of $130,000.




4   Semiannual Report To The Congress
Procurement Activities

 Employee Allegation Results in Conviction
 On November 23, 1992, a prospective GSA lessor pled guilty in U.S.
 District Court to offering a bribe to a Federal official. Sentencing is
 scheduled for April 1993.

 The conviction resulted from an investigation initiated after a GSA
 realty specialist alleged to the OIG that the prospective lessor had
 offered a bribe. In return, the realty specialist was to provide bid
 information to the prospective lessor.

 The realty specialist cooperated with OIG special agents and
 participated in a meeting during which the prospective lessor offered
 and paid the realty specialist a bribe to guarantee a lease award. The
 prospective lessor was consequently arrested by OIG agents and
 charged in U.S. District Court for violation of bribery laws.

 Construction Management Program
 This period, we completed a review of the Construction Management
 Program. During the past few years, GSA has contracted out for
 construction management services that were previously performed by
 GSA personnel. We determined that an evaluation of the program is
 needed to ensure that the use of construction management contracts
 represents the best method of obtaining these services.

 The audit report indicated that GSA had established a task force of
 design and construction personnel to review the results from the use of
 these contracts. The task force issued a report outlining general
 resource, management, and administrative concerns. We sent a
 questionnaire to all regional divisions concerning their experiences
 using these contracts. Their responses disclosed many of the same
 concerns identified by the task force. However, we found that GSA had
 not yet implemented all of the task force's recommendations.

 Also, GSA had not conducted a cost analysis to determine the
 program's cost effectiveness since it was implemented 6 years ago.
 Responses to the questionnaires indicated that several regions
 questioned whether these construction management contracts are the
 most cost effective method for obtaining these services.

 We believe that construction management services can be obtained
 from a number of sources including in-house personnel, contract
 architect-engineers, and management and inspection firms, as well as
 construction management contractors.




                                               Office of Inspector General 5
                                Procurement Activities

                                   The January 12, 1993 report recommended to the Commissioner,
                                   Public Buildings Service, that the Office of Real Property Development:

                                   •    Evaluate the efficiency and cost effectiveness of the Construction
                                        Management Program and other alternatives for providing
                                        construction management services.

                                   •    Determine, based upon the results of the evaluation, which
                                        alternatives should be promoted and used by the regional offices.

                                   Responsive action plans were provided for implementing the report
                                   recommendations.




6   Semiannual Report To The Congress
                  Agency Operations

                  GSA is a central management agency that sets Federal policy in such
                  areas as Federal procurement, real property management, and
                  telecommunications. GSA also manages diversified Govemment
                  operations involving buildings management, supply facilities, real and
                  personal property disposals and sales, data processing, and motor
                  vehicle and travel management. In addition, GSA manages over 135
                  accounting funds and provides cross-servicing support for client
                  agencies. Our audits examine the ~fficiency, effectiveness, and integrity
                  of GSA programs and operations and result in reports to management
                  that often include recommendations for improvement. This period, the
                  DIG performed 84 internal audits on Agency program areas.


Significant OIG   Vacant Space Management
                  This period the DIG reviewed the management of vacant space in GSA-
Accomplishments   controlled buildings in one region. While GSA is making efforts to
                  minimize vacant space in its inventory, the review disclosed that the
                  Agency's information system report that lists agency assignments,
                  vacant space, and classification of space was not in agreement with the
                  actual building space status.

                  In one case, an agency occupying 7,035 square feet of office space was
                  not listed on the report and, thus, had not been billed over $613,000.
                  The computerized information system should be updated to reflect the
                  current status of the space so that accurate information can be
                  provided to management. We also reported that space utilization
                  inspections, which are used to ensure accurate space records, need to
                  be done more frequently. The most recent inspection in the buildings
                  reviewed was performed in 1986.

                  Discrepancies also existed between information system data and
                  agency assignment flIes. For the 20 building and 135 corresponding
                  assignments in our sample, we found instances of missing, inaccurate,
                  or incomplete information representing 1.5 million square feet of space.
                  The assignment flIes need to be accurate and complete if they are to be
                  relied upon for managing GSA-controlled space.

                  The February 26, 1993 report made several recommendations to the
                  Acting Regional Administrator that the Real Estate Division:

                  ..   Update the information system with the unlisted assignment and
                       collect the rent due.

                  ..   Conduct space utilization surveys to determine the accuracy of the
                       assignment flIes.

                  ..   Update assignment flIes to reflect current assignments.

                  The Acting Regional Administrator agreed with the recommendations in
                  the report. The audit is still in the resolution process.


                                                                Office of Inspector General   7
                                   Agency Operations

                                   Special Order Program for Tools
                                   The special order program provides customer agencies with tools that
                                   have a limited or unpredictable demand. Agencies' requisitions for the
                                   items are submitted to GSA, which places orders for the items with
                                   vendors for direct delivery to customers. During Fiscal Year 1992, sales
                                   for tools under the program totaled $20.4 million.

                                   An OIG evaluation of the operations of the special order program for
                                   tools revealed that the time GSA takes to issue an order after receiving
                                   a customer requisition is lengthy. Analysis determined that 35 percent
                                   of the requisitions sampled were in suspension status because
                                   purchase descriptions needed to be prepared or updated.
                                   Compounding the situation was a large backlog of purchase
                                   descriptions requiring preparation or revision.

                                   The review also revealed that many customer requisitions were rejected
                                   due to minimum order limitations established by vendors. In Fiscal
                                   Year 1992, 30 percent of the customer requisitions were rejected
                                   because the quantities requested were less than the vendor's minimum
                                   order limitation.

                                   Our February 26, 1993 report made several recommendations to the
                                   Acting Regional Administrator to require the Federal Supply Service
                                   officials to:

                                   ..   Strengthen controls over requisitions in suspension status.

                                   ..   Ensure sufficient time is devoted to preparing or updating
                                        purchase descriptions.

                                   "    Consider alternative supply methods to decrease requisition
                                        rejections.

                                   The Acting Regional Administrator agreed with the recommendations in
                                   the report. The audit is still in the resolution process.

                                   Computer Security and Fire Safety
                                   This period OIG reviews at two GSA computer centers showed that
                                   improvements were needed insecurity and fire safety practices. At one
                                   facility, computer security inspections were not performed and
                                   personnel security clearances were not monitored. In addition, an
                                   alternate facility was not provided and backup copies of data were not
                                   stored at an off-site location because the required contingency plans for
                                   emergency situations were never prepared.

                                   At the other facility, prompt action was not taken to ensure employees
                                   have proper security clearances, a system security official had not been
                                   deSignated, and security inspections were not documented. Also,



8   Semiannual Report To The Congress
Agency Operations

facility safety inspections of smoke and heat detectors, fire alarms, and
sprinkler /halogen systems needed to be documented, and inspection
due dates needed to be monitored.

The December 23, 1992 and March 31, 1993 reports made several
recommendations to the Regional Administrator and the Acting
Regional Administrator to:

..   Conduct security inspections, monitor personnel security
     clearances, and develop contingency plans for emergency
     situations.

..   Ensure employees have appropriate security clearances, designate
     a system security official, and documcnt and monitor facility safety
     inspections.

The Regional Administrator and Acting Regional Administrator agreed
with or indicated that actions had already bcen taken to implement the
recommendations in the report. The audits are still in the resolution
process.

Employee Relocations
Public Law 95-151 increased Government employee relocation
allowances for household goods, temporary quarters, home selling
expenses, and home purchase expenses. It also incorporated a
provision authorizing Federal agencies to contract for relocation
services, including arranging for the purchase of a transferred
employee's residence.

As part of a President's Council on Integrity and Efficiency effort, the
GSA OIG led a multi-agency review of employee relocation practices
and procedures. The review was performed by the GSA, Department of
Justice, Department of Health and Human Services, and Department of
Agriculture OIGs.

The OIG audits determined that the agenCies generally did not
adequately manage relocations. Also, the audits showed that improved
employee relocation management and new poliCies and procedures
could significantly reduce the cost of employee relocations, ensure that
the Federal travel regulations are applied conSistently, and help
employees experience less stressful relocations.

The December 14, 1992 report recommended that the GSA
Administrator establish a Government Relocation Council chaired by
the Commissioner of the Federal Supply Service and comprised of
relocation managers from other Government agencies and relocation
contractor representatives. The Council should study issues and
recommend actions needed to ensure that Government relocations can
be effectively, effiCiently, and economically managed.


                                             Office of Inspector General 9
                                   Agency                erations

                                   The Administrator suggested that study groups formed from the
                                   membership of the Interagency Travel Management Committee be used
                                   to study Federal employee relocation issues. The GSA OIG coordinated
                                   a meeting involving personnel from the GSA Travel Management
                                   Division, Government relocation managers from 10 Government
                                   departments, and 2 relocation contractors. The actions planned as a
                                   result of this meeting represent a positive response to the audit report
                                   recommendation. The audit is still in the resolution process.

                                   Employee Benefit Programs
                                   The OIG reviewed GSA's processing of transactions, primarily for
                                   calendar year 1991, pertaining to four Federal employee benefit
                                   programs: Civil Service Retirement System, Federal Employees'
                                   Retirement System, Federal Employees' Group Life Insurance Program,
                                   and Federal Employees' Health Benefits Program. Within GSA, these
                                   transactions are processed jointly by regional personnel offices and the
                                   National Payroll Center. The value of the transactions processed by
                                   GSA in 1991 was $148 million.

                                   The review found that GSA's processing of employee benefit
                                   transactions was generally consistent with applicable regulations. Also,
                                   with the exception of some health benefit insurance transactions,
                                   GSA's transactions were properly recorded. Both GSA and the
                                   Department of Labor had made Government contributions to the Office
                                   of Personnel Management for GSA employees participating in the
                                   Workers' Compensation Program. Although the Department of Labor
                                   had payment responsibility, GSA also paid the Office of Personnel
                                   Management $38,594 because the National Payroll Center was not
                                   notified when the employees joined the Workers' Compensation
                                   Program. After discussing these payments with National Payroll Center
                                   personnel, action was initiated to recover the duplicate contributions
                                   and develop procedures to ensure that the Center is notified when
                                   employees enter into the Workers' Compensation Program.

                                   The January 13, 1993 report recommended specific actions to correct
                                   identified deficiencies. These included a recommendation that the
                                   Regional Administrator have the National Payroll Center determine
                                   whether it would be cost beneficial to recover health benefit insurance
                                   contributions for other years.

                                   The Regional Administrator agreed with the recommendations in the
                                   report. The audit is still in the resolution process.




10   Semiannual Report To The Congress
                       Prevention Activities

                       In addition to detecting problems in GSA operations, the OlG is
                       responsibleJor initiating actions to preventJraud, waste, and abuse and
                       to promote economy and efficiency.

                       The OIG's preaward audit program provides information to contracting
Significant Preaward   officers for use in negotiating contracts. The pre-decisional, advisory
Audits                 nature of preaward audits distinguishes them from other audits. This
                       period, the OIG performed pre award audits of 173 contracts with an
                       estimated value of $1.3 billion. The audit reports contained over
                       $127 million in financial recommendations.

                       Multiple Award Schedule Contracts
                       This period, the three most significant audits involving Multiple Award
                       Schedule contracts had estimated Government-wide sales totaling over
                       $176 million. Based on our findings, the auditors recommended over
                       $47 million in funds be put to better use.

                       The OIG evaluated data submitted in response to GSA's solicitations for
                       communications equipment, microcomputers, and data base
                       management programs. One audit advised the contracting officer that
                       the firm did not submit accurate sales data and granted local
                       governments greater discounts. Another audit noted that the company
                       did not disclose discounts offered to commercial customers. The final
                       report advised the contracting officer that the company offered
                       commercial customers similar terms and conditions, but higher
                       discounts.

                       Other Contracts
                       The OIG performed three significant audits involving proposals for
                       construction management services, electrical work, and electronic
                       security locks. The three audits reviewed proposed amounts of over
                       $22.0 million and recommended adjustments of more than
                       $7.7 million.

                       ..   The OIG evaluated a cost or pricing proposal for contract
                            management services related to the construction of a Federal
                            building. The audit advised the contracting officer that the
                            proposed costs for direct and indirect salary and overhead
                            expenses were significantly overstated.

                       ..   The OIG audited a change order pricing proposal submitted for
                            electrical work for an energy efficient lighting system associated
                            with a building renovation project. Our report identified overstated
                            proposed costs for direct labor, insurance and taxes, material
                            costs, and overhead.




                                                                   Office of Inspector General   11
                                 Prevention Activities

                                   ..    The OIG audited cost and pricing data submitted in response to a
                                         solicitation for electronic security locks. Audit adjustments were
                                         identified for material, warranty, and royalty expense, as well as
                                         non-recurring and indirect expenses. Based on these findings, the
                                         auditors recommended reductions to the proposed amou ll ts.

                                   The Federal Managers' Financial Integrity Act requires that agency
Federal Managers'                  systems of internal accounting and administrative control comply with
Financial Integrity Act            the internal control standards prescribed by the Comptroller General.
                                   In addition, the Act requires GSA management to provide reasonable
Reviews                            assurance that Agency resources are protected against fraud, waste,
                                   mismanagement, and misappropriation.

                                   We advised management that a material weakness should have been
                                   reported to the Administrator concerning a violation of the Anti-
                                   DefiCiency Act. Based upon our report, this condition was reviewed by
                                   GSA's Management Control Oversight Council and reported by the
                                   Administrator as a material weakness in the Agency's assurance
                                   statement.

                                   In addition, our reviews identified other matters concerning the
                                   adequacy of management evaluations, the need for assurance
                                   statements to address audits and management studies, and the
                                   expanded responsibilities of the Chief Financial Officer.

                                   Integrity Awareness Briefings comprise the ~iG's primary vehicle for
Integrity Awareness                educating employees on their responsibilities for the prevention of
                                   fraud and abuse, and for reinforcing employees' roles in helping to
                                   ensure the integrity of Agency operations. Several significant OIG
                                   accomplishments reported this period resulted from allegations
                                   received from GSA employees.

                                   This period, we presented 21 briefings which were attended by 340
                                   regional employees. These briefings explain the statutory mission of the
                                   OIG and the methods available for reporting suspected instances of
                                   wrongdoing. In addition, through case studies and slides, the briefings
                                   expose GSA employees to actual instances of fraud in GSA and other
                                   Federal agencies.

                                   The OIG's program for reviewing leases prior to award provides
Advisory Lease                     front-end assurance that GSA is adhering to regulations and
Reviews                            procedures before awarding selected leases exceeding established
                                   thresholds.

                                   These reviews, although advisory in nature and only selectively
                                   performed due to workload constraints, promote opportunities for
                                   economy and efficiency in the leasing area, and the avoidance of
                                   problems before they occur.




12   Semiannual Report To The Congress
                 Prevention Activities

                 The program achieved the following results during the reporting period:

                        Lease proposals submitted for review ................... 69
                        Lease proposals reviewed ..................................... 18
                        Lease proposals with deficiencies ......................... 15
                        Lease proposals with no deficiencies ...................... 3

                 Deficiencies identified through OIG advisory lease reviews related to
                 energy conservation; unallowable and inflated operating costs;
                 contradictory contract clauses; defective present value analysis; an
                 outdated appraisal report; an acquisition plan not properly approved;
                 and incomplete and missing file documentation.

                 The Hotline is another part of our prevention program. It provides an
Hotline          avenue for concerned employees to report suspected wrongdoing.
                 Hotline posters located in GSA-controlled buildings, as well as Hotline
                 brochures, encourage employees to use the Hotline.

                 During this reporting period, we received 485 Hotline calls, including
                 20 complaints from other agencies. Of these, 239 complaints were
                 referred to the White House in response to the President's National
                 Performance Review; 108 complaints did not warrant action; and 118
                 complaints were acted on as GSA Hotline complaints. One hundred five
                 (or 89 percent) of the 118 Hotline calls warranted further action. Twelve
                 complaints from other agenCies required further action.

                 The OIG performs independent reviews of implementation actions, on a
Implementation   test basis, to ensure that management's corrective actions are being
Reviews          accomplished according to established milestones. This period, the OIG
                 performed 15 implementation reviews. In 12 of these cases, manage-
                 ment was successfully implementing the recommendations. In the
                 other 3 instances, recommendations were not being implemented in
                 accordance with the established action plans; we advised management
                 of the need to revise the action plans.

                 This period, the OIG conducted two evaluations to satisfY legislative
Legislative      requirements for Fiscal Year 1992 activities. In one review, the OIG
Requirements     evaluated GSA's compliance with Public Law 101-121, also known as
                 the Byrd Amendment Restriction on Lobbying Activities. The
                 Amendment requires that companies receiving contracts, loans, or
                 cooperative agreements over certain dollar thresholds certifY that no
                 prohibited payments were or will be made, and disclose lobbying
                 activity costs paid from non-Federal funds. Our review indicated that
                 GSA was in compliance with the Amendment's requirements.

                 In the second review, the OIG evaluated GSA's compliance with Public
                 Law 97-258, Money and Finance Act. This law requires an evaluation of
                 GSA's process for following the gUidelines established under Office of
                 Management and Budget Circular A-120 for obtaining advisory and


                                                                    Office of Inspector General   13
                                Prevention Activities

                                 assistance services, and Public Law 96-83 for reporting such services
                                 to the Federal Procurement Data System. While-our review determined
                                 that GSA was in compliance with the gUidelines and reporting
                                 requirement, we advised management that improvements were needed
                                 in the controls over the appointments of experts and consultants.

                                 In addition to the above, the OIG conducted an audit survey of GSA's
                                 compliance with the National Energy Conservation Policy Act of 1978,
                                 as required by the Energy Policy Act of 1992. We reported that the
                                 Agency is in general compliance with prescribed energy conservation
                                 laws, poliCies, procedures, and practices, and has implemented the
                                 required energy conservation program.




14 Semiannual Report To The Congress
Review of Legislation and Regulations

         Pursuant to the Inspector General Act oj 1978, the GIG is required to
         review existing and proposed legislation and regulations to determine
         their impact on the economy and efficiency oj the Agency's programs and
         operations and on the prevention and detection ojjraud and abuse,

         During this period, the OIG reviewed 127 legislative matters and
         71 proposed regulations and directives, The OIG provided significant
         comments on the following legislative items:

         •   H.R. 823. Lobbying Disclosure Act of 1993. The proposed bill
             would establish uniform lobbying disclosure and registration
             requirements. We noted that it addressed reporting requirements
             for lobbying directed only at elected officials and senior-level
             agency personnel without monitoring lobbying directed at rank-
             and-file Federal employees. If enacted, the bill would amend Public
             Law 101-121, also known as the Byrd Amendment Restriction on
             Lobbying Activities, which currently requires Federal contractors
             and others to report all attempts to lobby any Federal employee for
             Government contracts, loans, or grants. We urged that the current,
             more comprehensive reporting requirements and restrictions on
             lobbying efforts remain at all levels.

         •   H.R. 611, Proposed Federal Travel Disclosure Act of 1993. We
             commented that this bill would impose certain restrictions and
             reporting requirements on Federal travel. While we generally
             supported the goal of increased accountability in Federal travel, we
             noted that some of the bill's reporting requirements would be a
             duplication of already existing reporting procedures. We also
             expressed concern that the reporting requirements could lead to
             the inadvertent disclosure of sensitive law enforcement
             information.




                                                    Office of Inspector General   15
        Statistical Summary of OIG Accomplishments

                                 Audit Reports Issued
                                 The OIG issued 273 audit reports, including 1 audit performed by the
                                 OIG that was issued to another agency and 15 audits performed for the
                                 OIG by another agency. The 273 reports contained financial
                                 recommendations totaling $134,178,757, including $127,549,880 in
                                 recommendations that funds be put to better use and $6,628,877 in
                                 questioned costs. Due to GSA's mission of procuring supplies and
                                 services for the Government, most of the recommendations that funds
                                 be put to better use were applicable to funds other agencies would
                                 expend under GSA's Government-wide contracts.

                                 Management Decisions on Audit Reports
                                 Table 1 summarizes the status of the universe of audits requiring
                                 management decisions during this period, as well as the status of those
                                 audits as of March 31, 1993. Fifteen reports more than 6 months old
                                 were awaiting management decisions as of March 31, 1993; but 14 of
                                 them were preaward audits, which are not subject to the 6 month
                                 management decision requirement. The remaining report had been
                                 removed from the management decision process due to ongoing
                                 investigative activity. This report was recently returned to the OIG after
                                 being declined for criminal or civil action, and has just been returned


                  Table 1. Management Decisions on OIG Audits
                                                                Reports with              Total
                                                    No. of        Financial             Financial
                                                   Reports    Recommendations       Recommendations

 For which no management decision
 had been made as of 10/1/92
    Less than 6 months old                          129              91               $  73,537,221
    More than 6 months old                           12              12                   6,816,611
 Reports issued this period                         268             158                 128,016,454
 TOTAL                                              409             261               $208,370,286
 For which a management decision
 was made during the reporting
 period
     Issued prior periods                           126                               $  73,649,062
     Issued current period                          178                                  88,580,597
 TOTAL                                              304                               $162,229,659
 For which no management decision
 had been made as of 3/31/93
     Less than 6 months old                           90              67              $  39,435,857
     More than 6 months old                         ~               ~                     6,704,770
 TOTAL                                              105              82               $ 46,140,627



16 Semiannual Report To The Congress
      Statistical Summary of OIG Accomplishments

                             into the management decision process. Table 1 does not include
                             1 report issued to another agency this period and 17 reports excluded
                             from the management decision process because they pertain to ongoing
                             investigations.

                             Management Decisions on Audit Reports With Financial
                             Recommendations
                             Tables 2 and 3 present the audits identified in Table 1 as containing
                             financial recommendations by category (funds to be put to better use or
                             questioned costs). Some of the reports contained recommendations that
                             funds be put to better use as well as questioned costs, and these
                             reports are therefore included in both Tables 2 and 3.




            Table 2. Management Decisions on OIG Audits with
            Recommendations that Funds be Put To Better Use
                                                        No. of                 Financial
                                                       Reports             Recommendations

For which no management decision had
been made as of 10/1/92
   Less than 6 months old                                  85                 $ 72,544,879
   More than 6 months old                                  11                    5,698,272
Reports issued this period                                141                  121,387,577
TOTAL                                                    237                 $199,630,728
For which a management decision was
made during the reporting period
   Recommendations agreed to by
   management based on proposed
   • management action                                                        $ 147,420,689
   .. legislative action
   Recommendations not agreed to
   by management                                                                   9,155.220
TOTAL                                                     164                $156,575.909
For which no management decision had
been made as of 3/31/93
   Less than 6 months old                                  59                 $ 37,468,388
   More than 6 months old                                  14                    5,586,431
TOTAL                                                      73                $ 43,054,819




                                                                       Office of Inspector General   17
         Statistical               mmary of OIG Accomplishments


                        Table 3. Management Decisions on OIG
                            Audits with Questioned Costs
                                                       No. of           Questioned           Unsupported
                                                      Reports             Costs
                                                                 -~~--~---~~~~~~~~--~
                                                                                                Costs
 For which no management decision
 had been made as of 10/1/92
     Less than 6 months old                               7         $     992,342                 $-
     More than 6 months old                               1             1,118,339
 Reports issued this period                              18             6.628,877
 TOTAL                                                  26          $ 8,739,558                   $-

For which a management decision
was made during the reporting
period
      Disallowed costs                                              $ 5,211.196*                  $-
      Costs not disallowed                                              442.554
TOTAL                                                    17         $ 5,653,750                   $-
 For which no management decision
 had been made as of3/31/93
       Less than 6 months old                             8         $ 1,967,469                   $--
       More than 6 months old                             1           1.118.339
TOTAL                                                     9         $ 3,085,808                   $-

 * $2,813,590 oj this amount was   recovered in civil settlements, as reported in Table 5.




                                   In addition, a $14,800.000 settlement, negotiated by the Department of
                                   Justice on behalf of the United States Government, was based on the
                                   results of audit and investigative work which did not result in a final
                                   audit report.


                                   Investigative Workload
                                   The OIG opened 155 investigative cases and closed 180 cases. In
                                   addition to these cases, the OIG received and evaluated 112 complaints
                                   and allegations from sources other than the Hotline that involved GSA
                                   employees and programs. Based upon our analyses of these complaints
                                   and allegations, OIG investigations were not warranted,




18   Semiannual Report To The Congress
Statistical Summary of OIG Accomplishments

                     Referrals
                     The OIG makes criminal referrals to the Department of Justice or other
                     authorities for prosecutive consideration and civil referrals to the Civil
                     Division of the Department of Justice or a U.S. Attorney for litigation
                     consideration. The OIG also makes administrative referrals to GSA
                     officials on certain cases disclosing wrongdoing on the part of GSA
                     employees, contractors, or private individuals doing business with the
                     Government.


              Table 4. Summary of OIG Referrals
  Type of Referral                           Cases                      Subjects

   Criminal                                    41                            71
   Civil                                       15                            20
   Administrative                              59                           153
   TOTAL                                      115                          244


                     In addition, the OIG made 58 referrals to GSA officials for informational
                     purposes only.

                     Actions on OIG Referrals
                     Based on these and prior referrals, 20 cases (28 subjects) were
                     accepted for criminal prosecution and 3 cases (3 subjects) were
                     accepted for civil litigation. Criminal cases originating from OIG
                     referrals resulted in 15 indictments/informations and 15 successful
                     prosecutions. OIG civil referrals resulted in 1 civil fraud complaint and
                     II settlements or judgments. Based on OIG administrative referrals,
                     management debarred 27 contractors, suspended 48 contractors, and
                     took 34 personnel actions against employees.




                                                                 Office of Inspector General   19
          Statistical Summary of OIG Accomplishments

                                    Monetary Results
                                    Table 5 presents the amounts determined to be owed the Government
                                    as a result of criminal and civil actions. The amounts do not
                                    necessarily reflect actual monetary recoveries.

                                    In addition. the OIG identified for recovery $4,168,087 in money
                                    and/ or property during the course of its investigations.


                           Table 5. Criminal and Civil Recoveries
                                                       Criminal                      Civil

            Fines and Penalties                       $       7,775           $       53,470
            Settlements or Judgments                                              20,270,000 *
            Restitutions                                    169,860
            TOTAL                                     $177,635                $20,323,470

 * This amount includes $2,813,590 reportable pursuant to Section 5(a)(8) oj the Inspector General Act as
     management decisions to disallow costs. See Table 3.




20   Semiannual Report To The Congress
Appendices
      Appendix /- Significant Audits From Prior Reports

Under the Agency's audit management decision process,           Contract Workload Management
GSA's Office of Administration, Office of Management
Controls and Evaluation, is responsible for tracking            Period First Reported: April 1, 1992 to September 30,
implementation of audit recommendations after a man-            1992
agement decision has been reached. That office furnished        This review revealed the need to develop a strategy for
the following status infonnation.
                                                                addressing procurement workload concerns. The report
                                                                contained one recommendation; it has not yet been
Eleven audits highlighted in prior Reports to the Congress
                                                                implemented.
have not been fully implemented; all are being
implemented in accordance with currently established
milestones.                                                     This recommendation involves establishing a working
                                                                group to develop a system for addressing identified issues
                                                                and to give attention to the Multiple Award Schedule pro-
Lease Administration                                            gram concerns. It is scheduled for completion by
Period First Reported: April 1, 1992 to September 30,           October 1993.
1992
This review disclosed the need to improve lease admin-          New Payroll System
istration. The report contained seven recommendations;          Period First Reported: April 1, 1992 to September 30,
five have been implemented.
                                                                1992
One of the remaining recommendations involves recov-            This review showed that improvements were necessary
ering the amount overpaid for equipment. It is scheduled        to develop the new payroll system according to GSA's
for completion by April 1993. The other recommendation          requirements. The report contained one recommenda-
involves unit price adjustments related to dtllerences in the   tion; it has not yet been implemented.
quantity of the installed lineal feet of partitioning and
inventory adjustments. It is scheduled for completion by        This recommendation requires oversight of the new
May 31, 1993.                                                   payroll system throughout its life cycle to ensure that the
                                                                system represents the efficient and economical use of
Controls Over Cash Receipts                                     ADP resources. A sample summary of a quality assur-
Period First Reported: April 1, 1992 to September 30,           ance review is due October 30, 1993.
1992
This review identified that controls over cash receipts from
                                                                Transportation Audit Program
surplus personal property sales needed strengthening.           Period First Reported: October 1, 1991 to March 31,
The report contained twelve recommendations; three have         1992
been implemented.
                                                                This review revealed that document controls over bills
Seven of the remaining nine recommendations involve             sent to contractors needed strengthening. The report
changes and improvements in internal controls. These            contained four recommendations; three have been
changes will be completed with revisions to a handbook          implemented.
and are scheduled for implementation by November 1993.
The remaining two recommendations involve developing            The remaining recommendation involves the reinstitu-
procedures concerning access to the automated sales             tion of a quality assurance program with measurable
system and coordinating the review of the sales office          performance standards for contractors, with tests of
reports. They are scheduled for completion by October           perfonnance and follow-up action. It is scheduled for com-
1993.                                                           pletion by April 1994.




                                                                                          OffIce of Inspector General   23
       Appendix /- Significant Audits From Prior Reports

Controls Over Receivables                                       annual review. The first part of the recommendation was
                                                                completed on September 30, 1992. However, the final
Period First Reported: October 1, 1991 to March 31,             step requires that any noncompliance with this require-
1992                                                            ment be reported directly to the Administrator by August
                                                                1993.
This review identified needed improvements to the billing
procedures and financial computer programs for
receivables, The report contained three recommenda-             Relocation of Household Goods
tions; two have been implemented,                               Period First Reported: October 1, 1990 to March 31,
                                                                1991
This recommendation requires the development of a
computer program which allows updates to multiple bills         This review identified the need to improve the operations
automatically for the same customer. It is scheduled for        of the Household Goods Traffic Management program.
completion on September 30, 1993.                               The report contained five recommendations; four have
                                                                been implemented.
Personal Property Sales
                                                                The remaining recommendation involves requiring
Period First Reported: April 1, 1991 to September 30,           agencies to submit carrier evaluation forms in a timely
1991                                                            manner and establishing procedures to furnish perform-
This review identified the need for improved procedures         ance data to carriers. It is scheduled for completion by
and controls to process personal property sales proceeds.       September 1993.
The report contained two recommendations; they have
not yet been implemented.                                       Rental Payments
The first recommendation requires the development of            Period First Reported: April 1, 1990 to September 30,
automated procedures to process personal property sales         1990
proceeds. It is scheduled for completion by June 1993.          This review showed that improved controls over lease
The second recommendation, which involves developing
                                                                payments were necessary. The report contained nine
software to record sales data on laptop computers, is
                                                                recommendations; eight have been implemented.
scheduled for completion by April 30, 1993.
                                                                The remaining recommendation, which requires the
Contingency Planning for Computer Systems                       resolution of debits and credits for a lease, is scheduled for
Period First Reported: October 1, 1990 to March 31,             completion by April 1993.
1991
This review disclosed the need to improve contingency           Rent Exemptions
plans for computer systems in the event of emergency            Period First Reported: April 1, 1990 to September 30,
situations. The report contained one recommendation; it         1990
has not yet been implemented.
                                                                This review identified the need for better management
This recommendation requires an annual review of                and control of rent exemptions. The report contained eight
computer system security documentation and a report             recommendations; seven have been implemented.
to the head of the appropriate service or staff office of any
noncompliance. Also, ifnecessary, it requires a report to       'The remaining recommendation requires the analysis of
the Administrator of any noncompliance on which                 a billing cycle and correcting the errors found. Imple-
corrective action has not been implemented by the next          mentation is scheduled for June 30, 1993.




24 Semiannual Report To The Congress
                    Appendix // .... Audit Report Register
                                                                                            Financial
                                                                                       Recommendations
                                                                                                -------
                                                                                    Funds To      Questioned
Date of    Audit                                                                    Be Put To    (Unsupported)
Report     Number                               Title                               Better Use        Costs

           (Note: Due to the pre-decisional nature of some audits, the financial
           recommendations pertaining to these reports are not listed in this
           Appendix,)

PBS        INTERNAL AUDITS
10/21/92   A21592       Pre award Lease Review: Bureau of the Census,
                        Regional Office, Detroit, Michigan, Lease Number
                        GS-05B-15556

10/22/92   A32109       Preaward Lease Review: United States Attorney,
                        Oklahoma City, Oklahoma, Lease No, GS-07B-13891

10/27/92   A20905       Postaward Audit of Lease Number GS-03B-79014:                $38,810           $7,165
                        Allendale Square Building, King of Prussia, PA

10/30/92   A23091       Preaward Lease Audit: 1441 L Street, NW, Washington,
                        DC, Lease Number GS-11B-2081O

11/05/92   A22108       Audit of Administration of Region 7 Guard Services
                        Contracts

11/05/92   A32110       Pre award Lease Review: Environmental Protection
                        Agency, Lease Number GS-08P-13081

11/06/92   A32431       Pre award Lease Audit of 31st and Cheryl Avenue,
                        Phoenix, Arizona, Lease Number GS-09B-91765

1l/12/92   A1l665       Audit of the Administration of the Old Post Office Lease,
                        Lease Number GS-PBS-11-0L-94 77

11/19/92   A31510       Preaward Lease Review: Bureau of Alcohol, Tobacco &
                        Firearms, Chicago, Illinois, Lease Number GS-05B-15446

11/24/92   A20955       Audit of Maintenance and Control of Assets, Pittsburgh
                        Field Office

1l/25/92   A32122       Preaward Lease Review: IRS, Albuquerque, NM, Lease
                        Number GS-07B-I3896

12/14/92   A11392       Audit of Award and Administration of Guard Contracts,
                        Region 9

12/14/92   A20959       Audit of Proposed Lease Number GS-03B-20118:
                        Gateway Commerce Center 2,6710 Gateway Center
                        Drive, Columbia, MD


                                                                                    Office of Inspector General 25
                     Appendix //- Audit Report Register
                                                                                          Financial·
                                                                                     Recommendations
                                                                                  Funds To      Questioned.
Date of     Audit                                                                 Be Put To    (Unsupported)
Report      Number                             Title                              Better Use        Costs

12/16/92    A22180     Audit of Administration of Concession Contracts in
                       Region 7

12/21/92    A20948     Audit of Procurement Practices, Pittsburgh Field Office

12/24/92    A31521     Preaward Lease Review: Department of Justice,
                       Anti-Trust Division, Chicago, Illinois, Lease Number
                       GS-05B-15504

01/12/93    AI1047     Audit of Public Buildings Service's Construction
                       Management Program

01/14/93    A30627     Preaward Lease Review: 7 World Trade Center, New York,
                       New York, Lease Number GS-02B-22673

01/28/93    A30631     Preaward Lease Review: 138 Delaware Avenue, Buffalo,
                       New York, Lease Number GS-02B-22689

01/29/93   A32444      Preaward Lease Audit: First Interstate Center, Boise,
                       Idaho, Lease Number GS-lOB-05790

02/03/93   A30914      Audit of Proposed Lease Number GS-03B-20130: One
                       Independence Mall, 615 Chestnut Street, Philadelphia,
                       Pennsylvania

02/05/93   A31209      Limited Audit of Space Usage, Ed Jones Federal
                       Building, Jackson, Tennessee

02/10/93   A22532      Postaward Lease Audit: 330 North Brand Boulevard,
                       Glendale, CalifOrnia, Region 9

02/22/93   A33005      Report of Audit Survey of the Energy Policy Act of 1992,
                       General Services Administration

02/23/93   A30920      Limited Postaward Audit of Lease Escalation Payments:                       $1,206
                       Lease Number GS-03B-00684; 615 Chestnut Street,
                       Philadelphia, PA

02/24/93   A33009      Preaward Lease Audit: Transpoint Building, 2100 2nd
                       Street, SW, Washington, DC, Lease Number GS-11B-
                       20780

02/26/93   A23029      Audit of Vacant Space in GSA Controlled Buildings in                      $613,112
                       the National Capital Region




26 Semiannual Report To The Congress
                    Appendix II . . . Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                                ~~~                -~--~

                                                                                Funds To      Questioned
Date of    Audit                                                                Be Put To    (Unsupported)
Report     Number                            Title                              Better Use        Costs

03/11/93   A23048     Audit of the Administration of Major Repair and
                      Alteration Contracts in the National Capital Region

03/16/93   A32149     Postaward Lease Audit: Texas Commerce Bank Tower,
                      Lease Number GS-07B-13069

03/24/93   A31838     Preaward Lease Audit: 7720 West 119th Street,
                      Overland Park, Kansas, Lease Number GS-06P-39032

03/25/93   A31229     Audit of Preaward Lease Actions: Executive Office Park,
                      Buildings 16, 18 & 26, Atlanta, GA, Lease Number
                      GS-04B-32185

03/25/93   A32474     Preaward Lease Audit of 9797 Aero Drive, San Diego,
                      California, Lease Number GS-09B-92887

03/30/93   A33025     Preaward Lease Audit: Hoffman II Office Building, Lease
                      Number GS-I1B-30088

PBS        CONTRACT AUDITS
10/05/92   A21879     Audit of Cost or Pricing Data: Air Masters Corporation,
                      Solicitation Number GS-06P-92-GXC-00 16

10/06/92   A20698     Preaward Audit of Architect and Engineering Services
                      Contract: Ysrael A. Seinuk, P.C., Solicitation Number
                      GS-02P-92-CU C-0029(N)

10/07/92   A20670     Preaward Audit of Cost or Pricing Data: Structure Tone
                      Inc., Consultant to BPT Properties, Foley Square, L.P.,
                      Contract Number GS-02P-91CUC-0057

10/13/92   A22170     Preaward Audit of Architcct and Engineering Services
                      Contract: Red Mountain Engineers, Inc., Solicitation
                      Number GS-07P-92-JUC-0003

10/13/92   A22171     Preaward Audit of Architect and Engineering Services
                      Contract: Flatow, Moore, Bryan, Shaffer, McCabe, Inc.,
                      Solicitation Number GS-07P-92-JUC-0003

10/15/92   A20342     Preaward Audit of Architect and Engineering Services
                      Contract: Energy Investment, Inc., Solicitation Number
                      GS-02P-92-CUD-0033




                                                                                 Office of Inspector General   27
                    Appendix II .... Audit Report Register
                                                                                            Financial
                                                                                       Recommendations
                                                                                   ~-----




                                                                                    Funds To      Questioned
Date of    Audit                                                                    Be Put To    (Unsupported)
Report     Number                              Title                                Better Use        Costs

10/15/92   A23070      Audit of Claim for Increased Costs: Morauer and Hartzell,
                       Incorporated, a Subcontractor to Blake Construction
                       Co., Inc., Contract Number GS-llB-08981

10/15/92   A23082      Audit of Claim for Increased Costs: Charles Riddle
                       Associates, Inc./Roofers, Inc., Joint Venture, Contract
                       Number GS-l IP91MKC0105 "NEG"

10/20/92   A20671      Preaward Audit of Cost or Pricing Data: Linpro New York
                       Realty, Inc., Contract No. GS-02P-91CUC0058

10/23/92   A23079      Preaward Audit of Lease Alteration Proposal: John J.
                       Kirlin, Inc., a Subcontractor to A. S. McGaughan
                       Company, Inc., Lease Number GS-ll B-90222

10/26/92   A20695      Preaward Audit of Architect and Engineering Services
                       Contrqct: Syska and Hennessy, Inc., Solicitation
                       Number GS-02P-92-CUD-0029(N)

10/26/92   A23067      Preaward Audit of Lease Alteration Proposal: Omni
                       Construction, Inc., Lease Number GS-l1 B-OO 143

10/30/92   A20699      Preaward Audit of Architect and Engineering Services
                       Contract: The Spector Group, Solicitation Number
                       GS-02P-92-CUC-0029

11/04/92   A21593      Pre award Audit of Cost or Pricing Data: Cleveland
                       Telecommunications Corp., Solicitation Number
                       GS05P92GAC0085

11/05/92   A23095      Preaward Audit of Architect and Engineering Services
                       Contract: GNM & Associates, Inc., Solicitation Number
                       GSIIP92EGDOOI4

11/06/92   A30906      Audit of Equitable Adjustment Claim: P. J. Dick
                       Contracting, Incorporated, Contract Number GS-03P-
                       88-DXC-0069

11/06/92   A30907      Audit of Equitable Adjustment Claim: Sherry & O'Leary,
                       Incorporated, Contract Number GS-03P-88-DXC-0069

11/06/92   A30908      Audit of Equitable Adjustment Claim: Ferry Electric
                       Company, Contract Number GS-03P-88-DXC-0069

11/06/92   A30909      Audit of Equitable Adjustment Claim: Easley & Rivers,
                       Incorporated, Contract Number GS-03P-88-DXC-0069



28 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                       Financial
                                                                               ~~-
                                                                                  Recommendations
                                                                               Funds To      Questioned
Date of    Audit                                                               Be Put To    (Unsupported)
Report     Number                            Title                             Better Use        Costs

11/10/92   A30314     Preaward Audit of Architect and Engineering Services
                      Contract: Ann Beha Associates, Solicitation Number
                      GS-O 1P-92-BZD-0026

11/12/92   A30308     Preaward Audit of Architect and Engineering Services
                      Contract: Tams Consultants, Inc., Solicitation Number
                      GS-O 1P-92-BZD-OO 19

11/16/92   A20700     Pre award Audit of Architect and Engineering Services
                      Contract: Richard Meier & Partners, Solicitation
                      Number GS-02P-92-CUC-0029

11/17/92   A30315     Preaward Audit of Architect and Engineering Services
                      Contract: Shepley Bulfinch Richardson and Abbott,
                      Incorporated, Solicitation Number GS-02P-92-CUC-0035

11/19/92   A21583     Preaward Audit of Architect and Engineering Services
                      Contract: Fink, Roberts & Petrie, Inc., Consultant to
                      Browning, Day, Mullins & Dierdorf, Inc., Solicitation
                      Number GS05P92GBC0028

11/20/92   A23089     Preaward Audit of Lease Alteration Proposal: Warner
                      Mechanical Corporation, a Subcontractor of Foulger-
                      Pratt Construction, Incorporated, Lease Number GS-I1P-
                      8701

11/24/92   A21581     Preaward Audit of Architect and Engineering Services
                      Contract: Browning Day Mullins Dierdorf, Inc.,
                      Solicitation Number GS05P92GBC0028

11/24/92   A32108     Pre award Audit of Architect and Engineering Services
                      Contract: CRSS Architects, Inc., Solicitation Number
                      GS-07P-92-JXC-0 120

11/25/92   A23092     Pre award Audit of Lease Alteration Proposal: Truland
                      Systems Corporation, a Subcontractor of Foulger-Pratt
                      Construction, Incorporated, Lease Number GS-11P-870l

11/25/92   A32423     Preaward Audit of Architect and Engineering Services
                      Contract: The Engineering Enterprise, Solicitation
                      Number GS-09P-92-KTC-0062

11/30/92   A20688     Pre award Audit of Cost or Pricing Data: Tishman
                      Broadway Corporation, Solicitation Number GS02P-
                      91CUC0058




                                                                               Office of Inspector General   29
                    Appendix II . . . Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                  Funds To      Questioned
Date of    Audit                                                                  Be Put To    (Unsupported)
Report     Number                              Title                              Better Use       Costs

11/30/92   A20689      Pre award Audit of Cost or Pricing Data: Tishman
                       Realty Corporation, Contract Number GS-02P-
                       91CUC0058

11/30/92   A20697      Preaward Audit of Cost or Pricing Data: Lehrer
                       McGovern Bovis, Inc., Solicitation Number GS-02P-91-
                       CUC-0057

11/30/92   A32424      Preaward Audit of Architect and Engineering Services
                       Contract: Martin, Middlebrook & Louie, Inc., Solicita-
                       tion Number GS-09P-92-KTC-0062

12/01/92   A23093      Pre award Audit of Lease Alteration Proposal: Truland
                       Systems Corporation, a Subcontractor of Foulger- Pratt
                       Construction, Incorporated, Lease Number G5-11 P-870 1

12/01/92   A32425      Preaward Audit of Architect and Engineering Services
                       Contract: Nacht & Lewis Architects, Solicitation
                       Number GS-09P-92-KTC-0062

12/02/92   A23085      Preaward Audit of Lease Alteration Proposal: Capitol
                       Mechanical Contractors, a Subcontractor of Warner
                       Mechanical Corporation, Lease Number GS-11 P-870 1

12/03/92   A32426      Preaward Audit of Architect and Engineering Services
                       Contract: Capital Engineering Consultants, Inc.,
                       Solicitation Number GS-09P-92-KTC-0062

12/07/92   A21271      Preaward Audit of Architect and Engineering Services
                       Contract: Nottingham, Brook and Pennington, Inc.,
                       Consultant to Lord, Aeck and Sargent, Inc., Solicitation
                       Number GS-04P-92-EXC-0018

12/07/92   A21272      Preaward Audit of Architect and Engineering Services
                       Contract: Lord, Aeck and Sargent, Inc., Solicitation
                       Number GS-04P-92-EXC-0018

12/09/92   A23090      Preaward Audit of Lease Alteration Proposal: Warner
                       Mechanical Corporation, a Subcontractor of Foulger-
                       Pratt Construction, Incorporated, Lease Number
                       GS-11 P-870 1

12/14/92   A33004      Report on Application of Agreed-Upon Procedures Under
                       RFP No. GS-llP-92-EGD-0015, HTB, Inc., Oklahoma
                       City, Oklahoma




30 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                -----:::c--___::___ ---   --~-"



                                                                                   Funds To      Questioned
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                            Title                                 Better Use        Costs


12/16/92   A20693     Preaward Audit of Cost or Pricing Data: Lehrer
                      McGovern Bovis, Inc., Solicitation Number GS-02P-91-
                      CUC-0057

12/17/92   A30313     Preaward Audit of Lease Escalation Proposal: Charles T.
                      Matses Nominee Trust, Lease Number GS-01B(PEL)-
                      03571 Neg.

12/18/92   A30902     Pre award Audit of Architect and Engineering Services
                      Contract: H.F. Lenz Company, Contract Number
                      GSI1P92EGC0007

12/18/92   A31812     Preaward Audit of Architect and Engineering Services
                      Contract: Hansen Lind Meyer, Inc., Solicitation Number
                      GS09P92KTC0062

12/28/92   A32104     Pre award Audit of Supplemental Architect and
                      Engineering Services Contract: Bernard Johnson,
                      Incorporated, Solicitation Number GS11P92EGCOOll

12/29/92   A22487     Audit of Claim for Increased Costs: Scott Company of
                      California, Contract Number GS-09P-88-KTC-0232

12/30/92   A31514     Preaward Audit of Architect and Engineering Services
                      Contract: Schmidt, Garden & Erikson, Inc., Solicitation
                      Number GS05P92GBCOO 19

12/31/92   A23084     Pre award Audit of Lease Alteration Proposal: Capitol
                      Mechanical Contractors, a Subcontractor of Warner
                      Mechanical Corporation, Lease Number GS-11P-8701

01/06/93   A30903     Preaward Audit of Architect and Ertgineering Services
                      Contract: Burt Hill Kosar Rittelmann Associates,
                      Contract Number GS11P92EGC0007

01/06/93   A32413     Preaward Audit of Architect and Engineering Services
                      Contract: Design Alaska, Inc.

01/06/93   A32414     Pre award Audit of Architect and Engineering Services
                      Contract: Little Susitna Construction Company, Inc.

01/07/93   A30610     Review of Pretrial Stipulation on Accounting for Field
                      Office Overhead Costs: Terminal Construction
                      Corporation, Contract Number GS-02P-23256




                                                                                     Office of Inspector General 31
                     Appendix // .... Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                                Funds To      Questioned
Date of    Audit                                                                Be Put To    (Unsupported)
Report     Number                             Title                             Better Use        Costs

01/07/93    A30611      Review of Pretrial Stipulation on Accounting for Home
                        Office Overhead Costs: Terminal Construction
                        Corporation, Contract Number GS-02P-23256

01/07/93    A30910     Preaward Audit of Architect and Engineering Services
                       Contract: John Milner Associates, Inc., Contract
                       Number GS11P92EGC0007

01/07/93    A32112     Pre award Audit of Supplemental Architect and
                       Engineering Services Contract: Merrick and Company,
                       Solicitation Number GS-07P-92-JXD-0 100

01/07/93   A33402      Preaward Audit of Architect and Engineering Services
                       Contract: Hellmuth, Obata & Kassabaum, Inc.,
                       Solicitation Number GS-04P-92-EXC-0017

01/12/93   A30626      Pre award Audit of Cost or Pricing Data: Lehrer
                       McGovern Bovis, Inc., Contract Number GS-02P-91
                       CUC-0057

01/13/93   A30603      Preaward Audit of Cost or Pricing Data: Lehrer
                       McGovern Bovis, Inc., Contract Number GS-02P-91-
                       CUC-0057

01/14/93   A30926      Preaward Audit of Architect and Engineering Services
                       Contract: KCI Technologies, Inc .. Solicitation Number
                       GS-03P-92-DXC-0029

01/15/93   A30623      Preaward Audit of Cost or Pricing Data: Vollmer
                       Associates, Contract Number GS-02P-91CUC0057

01/20/93   A20694      Preaward Audit of Cost or Pricing Data: Tishman Foley
                       Partners, Contract Number GS-02P-91-CUC0058

01/20/93   A30602      Preaward Audit of Architect and Engineering Services
                       Contract: Pei Cobb Freed and Partners, Architects,
                       Subcontractor Under Browning Day Mullins Dierdorf,
                       Inc., Solicitation Number GS-05P-92GBC0028

01/22/93   A22542      Audit of Claim for Increased Costs: TLC Engineering &
                       Construction, Contract Number GS-09P-90-NPC-0001

01/22/93   A30622      Preaward Audit of Architect and Engineering Services
                       Contract: Flack and Kurtz Consulting Engineers,
                       Solicitation Number GS-02P-91-CUC0058




32 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                       Financial
                                                                                  Recommendations
                                                                               Funds To      Questioned
Date of    Audit                                                               Be Put To    (Unsupported)
Report     Number                            Title                             Better Use        Costs

01/27/93   A30604     Preaward Audit of Cost or Pricing Data: Lehrer
                      McGovern Bovis, Inc., Contract Number GS-02P-91-
                      CUC-0057

01/28/93   A30619     Postaward Audit of Cost or Pricing Data: Historic                           $2,139
                      Conservation and Interpretation, Inc., Contract
                      Number GS-02P-91-CUC-0069

01/28/93   A33006     Preaward Audit of Change Order Proposal: B & D Stone
                      Contractors, Inc., a Subcontractor of The George Hyman
                      Construction Company, Contract Number GS-11P90-
                      MKCO 197 "NEG"

01/29/93   A33007     Preaward Audit of Architect and Engineering Services
                      Contract: Meta Engineers, Professional Corporation,
                      Contract Number GS11P92EGD0014

02/02/93   A30916     Preaward Audit of Supplemental Architect-Engineering
                      Term Contract: MMM Design Group, Solicitation
                      GS-03P-92-DXC-0069

02/03/93   A31829     Pre award Audit of Architect and Engineering Services
                      Contract: Bibb and Associates, Inc., Solicitation
                      Number GS06P92GYD0065

02/05/93   A31515     Pre award Audit of Cost or Pricing Data: Commercial
                      Engineering Corporation, Solicitation Number GS05P92-
                      GBC0074

02/17/93   A30324     Preaward Audit of Cost or Pricing Data: Satin American
                      Corporation, Contract Number GS-O 1P-91-BZC-O 154

02/19/93   A20690     Pre award Audit of Cost or Pricing Data: Tishman
                      Construction Corporation of New York, Contract
                      Number GS02P91CUC0058

02/19/93   A20701     Preaward Audit of Cost or Pricing Data: Tishman Foley
                      Partners, Contract Number GS-02P-91-CUC0058

02/19/93   A31530     Preaward Audit of Architect and Engineering Services
                      Contract: Dubin, Dubin and Moutoussamy, Solicitation
                      Number GS05P92GBD0002

02/23/93   A23086     Audit of Rental Income: Post Office Pavilion Joint
                      Venture, Lease Number GS-PBS-11-0L-9477




                                                                                Office of Inspector General 33
                    Appendix //- Audit Report Register
                                                                                       Financial
                                                                                  Recommendations
                                                                               Funds To      Questioned
Date of    Audit                                                               Be Put To    (Unsupported)
Report     Number                             Title                            Better Use        Costs

02/24/93   A22176      Audit of Claim for Increased Costs: M-T Electric
                       Company, Contract Number GS-07B-31522

02/24/93   A22177      Audit of Claim for Increased Costs: McIntosh
                       Construction Company, Inc., Contract Number GS-07B-
                       31522

02/24/93   A30644      Pre award Audit of Cost or Pricing Data: Imperial
                       ElectriC, Inc., Solicitation Number GS-02P-93-
                       CUC-0018(N)

02/25/93   A33024      Audit of Common Area Maintenance Charges: Post Office
                       Pavilion Joint Venture, Lease Number GS-PBS-ll-
                       OL-9477

02/26/93   A31828      Pre award Audit of Architect and Engineering Services
                       Contract: Gastinger and Walker Architects, Inc.,
                       Solicitation Number GS06P92GYD0065

03/11/93   A32132      Preaward Audit of Architect and Engineering Services
                       Contract: Ford, Powell & Carson, Inc., Solicitation
                       Number GS-07P-92-JUC-00 13

03/11/93   A33013      Report on Equitable Adjustment Delay Claim Proposal
                       for the GSA West Heating Plant to General Services
                       Administration under Prime Contract No. GSIIP88-
                       MKC0236: The Babcock & Wilcox Construction
                       Company, Inc., Copley, Ohio

03/12/93   A31827      Preaward Audit of Change Order Proposal P-16: Trieb
                       Sheet Metal Company, Subcontractor to Three S
                       Constructors, Inc., Contract Number GS06P91 GYC0048

03/15/93   A33017      Preaward Audit of Change Order Proposal: Grunley
                       Construction Company, Inc., Contract Number
                       GS-IIP90MKCO 199

03/16/93   A30624      Preaward Audit of Cost or Pricing Data: Tishman Foley
                       Partners, Contract Number GS-02P-91-CUC-0058

03/16/93   A32434      Preaward Audit of Change Order Proposal: Dwyer
                       Electric, Inc., Modification Number PC48, Contract
                       Number GS-09P-91-LTC-00l4




34 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                                Funds To      Questioned
Date of    Audit                                                                Be Put To    (Unsupported)
Report     Number                            Title                              Better Use        Costs

03/16/93   A32435     Preaward Audit of Change Order Proposal: Sandstrom
                      Plumbing and Heating, Modification Number PC20,
                      Contract Number GS-09P-91-LTC-0014

03/16/93   A32436     Pre award Audit of Change Order Proposal: Strand
                      Incorporated, Modification Number PC20, Contract
                      Number GS-09P-9l-LTC-OO14

03/16/93   A32437     Preaward Audit of Change Order Proposal: Strand
                      Incorporated, Modification Number PC48, Contract
                      Number GS-09P-91-LTC-OO 14

03/17/93   A31536     Pre award Audit of Architect and Engineering Services
                      Contract: Barge, Waggoner, Surrmer and Cannon, Inc.,
                      Solicitation Number GS05P92GBD0035

03/19/93   A23061     Pre award Audit of Change Order Proposal: W. M.
                      Schlosser Co., Inc., Contract No. GS-llP89MKC0266

03/19/93   A30640     Preaward Audit of Cost or Pricing Data: Structure Tone,
                      Inc., Contract Number GS-02P-91-CUC-0057

03/22/93   A30665     Review of Pretrial Stipulation on Accounting for
                      Additional Labor Costs: Terminal Construction
                      Corporation, Contract Number GS-02P-23256

03/22/93   A31833     Preaward Audit of Change Order Proposal P-16: Capital
                      Electric Construction Company, Inc., Subcontractor to
                      J .E. Dunn Construction Company, Contract Number
                      GS06P91 GYC0048

03/24/93   A32460     Preaward Audit of Architect and Engineering Services
                      Contract: Gensler and Associates Architects,
                      Solicitation Number GS-11P-92-EGC-0020

03/25/93   A30609     Preaward Audit of Cost or Pricing Data: Evergreene
                      Painting Studios, Incorporated, Contract Number
                      GS-02P-91-CTC-0049

03/25/93   A30652     Preaward Audit of Supplemental Architect and
                      Engineering Services Contract: Grad Associates, P.A.,
                      Solicitation Number GS-02P92CUD0060(N)




                                                                                 Office of Inspector General 35
                     Appendix //- Audit Report Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                   Funds To      Questioned
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                              Title                               Better Use        Costs

03/26/93   A30662      Review of Pretrial Stipulation on Accounting for Incurred
                       Contract Costs Versus Contract Price: Terminal
                       Construction Corporation, Contract Number GS-02P-
                       23256

03/30/93   A32448      Audit of Claim for Increased Costs: Al and Associates
                       Property Services, Incorporated, Contract Number
                       GS-09P-86-KSC-0174

03/30/93   A33023      Preaward Audit of Change Order Proposal: Singleton
                       Electric Company, Inc., a Subcontractor of A. S.
                       McGaughan Company, Inc., Contract Number
                       GS-l1pg1MKC-0l96 "U"

03/30/93   A33433      Preaward Audit of Architect and Engineering Services
                       Contract: Delon Hampton & Associates, Chartered,
                       Contract Number GS 11P2EGC0020

FSS        INTERNAL AUDITS
12/15/92   A 10625     Audit of the Palmetto Distribution Center Modernization
                       Project

01/28/93   A20965      Audit of Vehicle Sales Preparation Costs

02/05/93   A22109      Audit of Federal Supply Service Inventory Controls and
                       Procedures, Southwest Distribution Center, Fort Worth,
                       Texas, Region 7

02/17/93   A22505      Audit of the Los Angeles Fleet Management Center,
                       Region 9

02/24/93   A21517      Audit of the Ohio State Agency for Personal Property

02/26/93   A00715      Audit of the Utilization of Reportable and Nonreportable
                       Excess Personal Property

02/26/93   A21838      Audit of Federal Supply Service's Tools Special Order
                       Program

FSS        CONTRACT AUDITS
10/02/92   A21242      Audit of Claim for Increased Costs: Vehicle Maintenance
                       Services, Contract Number GS-04F-88-ETS-0165




36 Semiannual Report To The Congress
                     Appendix //- Audit Report Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                   Funds To      Questioned
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                              Title                               Better Use        Costs

10/06/92   A 10038     Postaward Audit of Multiple Award Schedule Contract:                       $1,500,000
                       Bio-Rad Laboratories, Digilab Division, Contract No.
                       GS-00F-93729 for the Period May 1, 1987 through
                       April 30, 1990

10/22/92   A20966      Limited Audit of Government Billings Under Contract                            $2,258
                       Number GS-07F-6987: Yorkraft, Inc.

10/29/92   A21203      Postaward Audit of Multiple Award Schedule Contract:                       $1,719,252
                       American Body Armor & Equipment, Inc., Contract
                       Number GS-07F-16464

10/30/92   A33407      Pre award Audit of Cost or Pricing Data: Camillus
                       Cutlery Co., Solicitation Number 6FEP-CO-AY-920055-N

11/16/92   A21850      Postaward Audit of Multiple Award Schedule Contract:
                       Ingersoll-Rand Company, Contract Number GS-06F-
                       77979

11/17/92   A20954      Preaward Audit of Cost or Pricing Data: Commercial
                       Drapery Contractors, Inc., Contract Numbers GS- OOF-
                       5656Aand GS-00F-5657A

11/25/92   A33411      Preaward Audit of Multiple Award Schedule Contract:
                       Brulin Corporation, Solicitation Number TFfC-
                       92-MR-686AB

11/30/92   A30606      Preaward Audit of Multiple Award Schedule Contract:
                       Boonton Electronics Corporation, Solicitation Number
                       FCGS-Y5-92-0032-B-N

12/03/92   A31508      Preaward Audit of Multiple Award Schedule Contract:
                       Keithley Instruments, Inc., Solicitation Number FCGS-
                       Y5-92-0032-B-N

12/08/92   A31512      Preaward Audit of Cost or Pricing Data: Silver Leaf Paper
                       Corporation, Solicitation Number 2FYP-DQ-92-0003N

12/11/92   A31511      Preaward Audit of Multiple Award Schedule Contract:
                       Network Communications Corporation, Solicitation
                       Number FCGS-Y5-92-0032-B-N

12/17/92   A32445      Audit Report on Adequacy of Initial Disclosure
                       Statement: Ebsco Interiors and Ebsco Carpet Mills,
                       Divisions of Ebsco IndustIies, Incorporated, Solicitation
                       Number 3FNH-92- F301-N



                                                                                    Office of Inspector General 37
                     Appendix // . . . Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                  Funds To      Questioned
Date of     Audit                                                                 Be Put To    (Unsupported)
Report      Number                             Title                              Better Use       Costs

12/23/92    A33412      Preaward Audit of Multiple Award Schedule Contract:
                        Telecommunications Techniques Corporation, Solicita-
                        tion Number FCGS-Y5-92-0032-B-N

12/30/92    A30319      Preaward Audit of Multiple Award Schedule Contract:
                        Schlumberger Technologies, Inc., Solicitation Number
                        FCGS-Y5-92-0032-B

01/05/93   A31810       Pre award Audit of Multiple Award Schedule Contract:
                        IFR Systems, Inc., Solicitation Number FCGS-Y5-
                        92-0032-B-N

01/06/93   A00551       Postaward Audit of Multiple Award Schedule Contract:                      $583,058
                        Panasonic Communications & Systems Company,
                        Contract No. GS-00F-69250

01/06/93   A 10345      Postaward Audit of Multiple Award Schedule Contract:                     $730,532
                        Panasonic Communications & Systems Company,
                        Contract No. GS-00F-85667

01/12/93   A32442      Preaward Audit of Multiple Award Schedule Contract:
                       Tekelec, Solicitation Number FCGS-Y5-92-0032-B-N

01/14/93   A31807       Preaward Audit of Multiple Award Schedule Contract:
                        Racal-Dana Instruments, Inc., Solicitation Number
                        FCGS-Y5-92-0032-B-N

01/19/93   A31815      Preaward Audit of Multiple Award Schedule Contract:
                       ABM, Inc., Solicitation Number FCGR-92-0041-N

01/28/93   A32114       Preaward Audit of Multiple Award Schedule Contract:
                        Syncom Technologies, Inc., Solicitation Number 2FY5-AV-
                        92-0001B

01/28/93   A32439      Pre award Audit of Multiple Award Schedule Contract:
                       Beckman Industrial Corporation, Solicitation Number
                       FCGS-Y5-92-0032-B-N

01/29/93   A21582      Pre award Audit of Cost or Pricing Data: Jimmy
                       Hamilton Enterprises, Inc., d/b/a MAS-Hamilton Group

01/29/93   A22178      Preaward Audit of Multiple Award Schedule Contract:
                       Johnson & Johnson Medical, Inc., Solicitation
                       Number TFTC-92-MR-686AB

01/29/93   A23354      Postaward Audit of Multiple Award Schedule Contract:                         $1,172
                       Bray and ScarfI', Inc., Contract Number GS-07F-16979


38 Semiannual Report To The Congress
                     Appendix //- Audit Report Register
                                                                                        Financial
                                                                                   Recommendations --"---~~-~




                                                                                Funds To      Questioned
Date of    Audit                                                                Be Put To    (Unsupported)
Report     Number                             Title                             Better Use        Costs

01/29/93   A30613      Preaward Audit of Multiple Award Schedule Contract:
                       Laser Precision Corporation, Solicitation Number
                       FCGS-Y5-92-0032-B-N

01/29/93   A31513      Preaward Audit of Multiple Award Schedule Contract:
                       Nicolet Instrument Corporation, Solicitation Number
                       FCGS-Y5-92-0032-B-N

02/04/93   A32438      Preaward Audit of Multiple Award Schedule Contract:
                       Anritsu Wiltron Sales Company, Solicitation Number
                       FCGS-Y5-92-0032-B-N

02/05/93   A32125      Preaward Audit of Multiple Award Schedule Contract:
                       Sencore, Inc., Solicitation Number FCGS-Y5-92-
                       0032-B-N

02/18/93   AlOO81      Postaward Audit of Multiple Award Schedule Contract:                    $1,042,433
                       Pleion Corporation, Contract Number GS-00F-84009

02/18/93   A31814      Pre award Audit of Cost or Pricing Data: LeFebure
                       Corporation, Solicitation Number FCNS-90-G504-B

02/18/93   A32418      Preaward Audit of Multiple Award Schedule Contract:
                       Hewlett-Packard Company, Solicitation Number FCGS-
                       Y5-92-0032-B-N

02/19/93   A30325      Preaward Audit of Multiple Award Schedule Contract:
                       Wang Laboratories, Inc., Solicitation Number 2FYS-AV-
                       92-0001B

02/19/93   A32127      Preaward Audit of Multiple Award Schedule Contract:
                       Wabash Computer Products, Inc., Solicitation Number
                       2FYS-AV-92-000IB

02/23/93   A33422      Preaward Audit of Multiple Award Schedule Contract:
                       International Business Supplies Corporation, Solicita-
                       tion Number 2IiYS-AV-92-0001B

02/24/93   A3343 1     Postaward Audit of Multiple Award Schedule Contract:                          $563
                       International Business Supplies Corporation, Contract
                       Number GS-02F-41 04A

03/02/93   A32449      Preaward Audit of Multiple Award Schedule Contract:
                       John Fluke Manufacturing Co., Inc., Solicitation
                       Number FCGS-Y5-92-0032-B-N




                                                                                 Office of Inspector General 39
                     Appendix //- Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                                                -.-~-----




                                                                                 Funds To      Questioned
Date of     Audit                                                                Be Put To    (Unsupported)
Report      Number                            Title                              Better Use        Costs

03/03/93    A32440      Preaward Audit of Multiple Award Schedule Contract:
                        Memorex Computer Supplies, Solicitation Number
                        2FYS-AV-92-0001B

03/08/93    A30326      Preaward Audit of Multiple Award Schedule Contract:
                        Nashua Corporation, Solicitation Number FCGR-92-
                        0041-N

03/08/93    A32417      Preaward Audit of Multiple Award Schedule Contract:
                        CXR Telcom Corporation, Solicitation Number FCGS-Y5-
                        92-0032-B-N

03/10/93    A32451     Preaward Audit of Multiple Award Schedule Contract:
                       John Fluke Manufacturing Company, Incorporated,
                       Solicitation Number FCGS-X4-90-0025-1-N-8-25-92

03/11/93    A31539     Preaward Audit of Multiple Award Schedule Contract:
                       ADM International, Inc., Solicitation Number
                       3FNH-93-D303-B

03/12/93   A32462      Pre award Audit of Multiple Award Schedule Contract:
                       EIP Microwave, Inc., Solicitation Number FCGS-Y5-
                       92-0032-B-N

03/15/93   A31532      Preaward Audit of Multiple Award Schedule Contract:
                       Oce'-Bruning, Inc., Solicitation Number FCGR-92-0041-N

03/16/93   A31541      Limited Scope Audit of Government Billings: Oce'                            $1,920
                       Bruning, Inc., Contract Number GS-00F-1953A

03/19/93   A32466      Preaward Audit of Multiple Award Schedule Contract:
                       Vu-Data Corporation, Solicitation Number FCGS-Y5-
                       92-0032-B-N

03/24/93   A31531      Preaward Audit of Multiple Award Schedule Contract:
                       OCE'-Office Systems, Inc., Solicitation Number FCGR-92-
                       0041-N

03/26/93   A32465      Preaward Audit of Multiple Award Schedule Contract:
                       Tektronix, Inc., Solicitation Number FCGS-Y5-92-
                       0032-B-N

IRMS        INTERNAL AUDITS
11/06/92   A2253 1     Audit of the Contract Award Process for the Federal
                       Information Systems Support Program, Pacific Zone


40 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                      Financial
                                                                                 Recommendations
                                                                              Funds To      Questioned
Date of    Audit                                                              Be Put To    (Unsupported)
Report     Number                            Title                            Better Use        Costs

12/09/92   A21527     Audit of Computer Security and Fire Safety, Region 5

12/23/92   A21533     Audit of Computer Security and Fire Safety at the
                      Information Resources Management Service Computer
                      Facility in Chicago, Illinois

02/26/93   A31806     Audit of Telephone EqUipment Prices Obtained Under
                      Contract GS-06F-12784, Southwestern Bell Telecom,
                      Inc.

03/30/93   A23635     Audit of Computer Security and Fire Safety, Unisys
                      Computer Facility, National Capital Region

IRMS       CONTRACT AUDITS
10/05/92   A21867     Audit of Proposed 1991 Overhead Rates: U.S. Sprint
                      Communications Company, Contract Number GSOOK89-
                      AHD0009

10/07/92   A23342     Preaward Audit of Multiple Award Schedule Contract:
                      Systems Center, Inc., Solicitation Number GSC-KESO-C-
                      00047-N-4-21-92

10/07/92   A30307     Limited Scope Postaward Audit of Government Billings                      $61,696
                      Under Contract Number GSOOK91AGS5815: Wang
                      Laboratories, Incorporated

10/08/92   A22514     Preaward Audit of Multiple Award Schedule Contract:
                      Sybase, Inc., Solicitation Number GSC-KESO-C-
                      00047-N-4-21-92

10/09/92   A21881     Pre award Audit of Change Order Proposals:
                      Southwestern BeH)Telecommunications, Inc., Contract
                      Number GS-06F.,12784

10/22/92   A20953     Preaward Audit of Multiple Award Schedule Contract:
                      Ericsson GE Mobile Communications Distribution
                      Venture, Solicitation Number GSC-KESR-00063-
                      N-05-13-92

11/06/92   A22167     Preaward Audit of Multiple Award Schedule Contract:
                      Motorola Inc., Solicitation Number GSC-KESR-00063-
                      N-05-13-92




                                                                               Office of Inspector General 41
                     Appendix //- Audit Report Register
                                                                                       Financial
                                                                                  Recommendations
                                                                               Funds To      Questioned
Date of     Audit                                                              Be Put To    (Unsupported)
Report      Number                            Title                            Better Use       Costs

11/09/92    A22147     Limited Scope Postaward Audit of Multiple Award
                       Schedule Contracts: Motorola Incorporated (Refunds),
                       Contract Numbers GSOOK-90-AGS-0703 and GSOOK-89-
                       AGS-0656

11/24/92    A23345      Preaward Audit of Cost or Pricing Data: Information
                        Strategies Group, Solicitation Number GSC-KESO-C-
                        00047 -N-21-92

11/24/92    A33706      Pre award Audit of Cost or Pricing Data: Columbia
                        Services Group, Incorporated, Solicitation No. GSC-
                        KEGB-92-15

12/14/92    A33707     Preaward Audit of Cost or Pricing Data: Abacus
                       Technology Corporation, Solicitation Number KECP-
                       92-003

12/30/92    A20692      Pre award Audit of Cost or Pricing Data: AT&T
                        Communications, Contract No. GS-00K-89AHDOO08

01/12/93    A20339     Postaward Audit of Multiple Award Schedule Contract:                    $20,386
                       Cabletron Systems, Inc., Contract Number GSOOK91
                       AGS5182

01/12/93    A30320     Preaward Audit of Multiple Award Schedule Contract:
                       Cabletron Systems, Inc., Solicitation Number GSC-
                       KESF -B-C-00048

01/13/93    A30316     Pre award Audit of Multiple Award Schedule Contract:
                       General Datacomm, Inc., Solicitation Number GSC-
                       KESF -B-C-00048

01/22/93    A30330      Limited Scope Postaward Audit of Government Billings                   $34,922
                        Under Contract Number GSOOK92AGS6147: General
                       .Datacomm, Inc.

01/27/93    A32126     Preaward Audit of Multiple Award Schedule Contract:
                       Compaq Computer Corporation, Solicitation Number
                       GSC-KESF -B-C-00048-N-10-29-92

01/28/93   A31520      Preaward Audit of Multiple Award Schedule Contract:
                       Allen-Bradley Company, Inc., Solicitation Number
                       GSC-KESF -13-C-00048-N-10-29-92




42 Semiannual Report To The Congress
                    Appendix //-- Audit Report Register
                                                                                           Financial
                                                                                       Recommendations
                                                                                ---==----=
                                                                                   Funds To      Questioned
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                            Title                                 Better Use       Costs

01/29/93   A33420     Preaward Audit of Multiple Award Schedule Contract:
                      National Standards Association, Solicitation Number
                      GSA-KESF-B-C-00048-N-1O-29-92

01/29/93   A33421     Preaward Audit of Multiple Award Schedule Contract:
                      Win Laboratories, Ltd., Solicitation Number GSC-KESF-
                      B-C-00048-N-IO-29-92

02/04/93   A30322     Preaward Audit of Multiple Award Schedule Contract:
                      Chip com Corporation, Solicitation Number GSC-
                      KESF-B-C-00048-N

02/05/93   A32443     Preaward Audit of Multiple Award Schedule Contract:
                      Network General Corporation, Solicitation Number
                      GSC-KESF-B-C-00048-N-1O-29-92

02/10/93   A30625     Preaward Audit of Multiple Award Schedule Contract:
                      Syntrex Technologies, Incorporated, Solicitation
                      Number GSC-KESF-B-C-00048-N

02/18/93   A32131     Preaward Audit of Multiple Award Schedule Contract:
                      Omnicomp Graphics Corporation, Solicitation
                      Number GSC-KESF-B-C-00048-N-1O-29-92

02/19/93   A22182     Preaward Audit of Multiple Award Schedule Contract:
                      Storage Technology Corporation, Solicitation Number
                      GSC-KESO-C-00047-N-4-21-92

02/22/93   A32446     Preaward Audit of Multiple Award Schedule Contract:
                      Micro Focus, Incorporated, Solicitation Number GSC-
                      KESF-B-C-00048-N-10-29-92

02/22/93   A32464     Preaward Audit of Multiple Award Schedule Contract:
                      Toshiba America Information Systems, Inc., Solicitation
                      Number GSC-KESF-B-C-00048-N-1O-29-92

02/24/93   A30612     Preaward Audit of Change Order Proposal: AT&T
                      Communications, Contract Number GSOOK89AHDOO08

03/04/93   A33711     Preaward Audit of Cost or Pricing Data: General
                      Kinetics Incorporated, Cryptek DiviSion, Solicitation
                      Number GSC-KESV -00062-N-05-06-92

03/04/93   A33712     Pre award Audit of Cost or Pricing Data: Control Data
                      Systems, Incorporated, Contract Number GSC-
                      KEGD-92-0005



                                                                                  Office of Inspector General 43
                    Appendix //- Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                                                    "--~-




                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                             Title                              Better Use        Costs

03/04/93   A33714      Preaward Audit of Cost or Pricing Data: User
                       Technology Associates, Incorporated, Solicitation
                       Number GSC-KEGB-920 1

03/05/93   A30915      Pre award Audit of Multiple Award Schedule Contract:
                       Swan Technologies, Contract Number GSOOK92AGS-
                       6096, Renewal 1

03/0S/93   A30639      Pre award Audit of Cost or Pricing Data: Syntrex
                       Technologies, Incorporated, Solicitation Number GSC-
                       KESF -B-C-0004S-N-10-29-92

03/09/93   A30331      Preaward Audit of Multiple Award Schedule Contract:
                       Gensym Corporation, Solicitation Number GSC-KESF-
                       B-C-0004S-N

03/22/93   A32463      Pre award Audit of Multiple Award Schedule Contract:
                       SOO-Software, Inc., Solicitation Number GSC-KESF-
                       B-C-0004S-N-1 0-29-92

03/30/93   A32450      Preaward Audit of Multiple Award Schedule Contract:
                       Advanced Logic Research, Inc., Solicitation Number:
                       GSC-KESF -B-C-0004S-N-10-29-92

OTHER INTERNAL AUDITS
10/15/92   A20964      Limited Audit of Regional Administrator's Fiscal
                       Year 1992, Section 2 Assurance Statement

10/16/92   A215S4      Limited Audit of the Regional Administrator's Basis for
                       Fiscal Year 1992 Federal Managers' Financial Integrity
                       Act Assurance Statement, Region 5

10/16/92   A23072      Limited Audit of the Assistant Regional Administra-
                       tor's Public Buildings Service, Fiscal Year 1992
                       Section 2 Assurance Statement

10/19/92   A21275      Limited Audit of the Regional Administrator's Basis for
                       Fiscal Year 1992 Section 2 Assurance Statement,
                       Region 4

10/20/92   A22539      Audit of Time and Attendance, East Bay Field Office,
                       Region 9




44 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                             Financial
                                                                                        Recommendations
                                                                                     Funds To      Questioned
Date of    Audit                                                                     Be Put To    (Unsupported)
Report     Number                               Title                                Better Use        Costs

10/22/92   A22513     Audit ofImprest Fund Number 1008, Federal Building
                      & USPO, Juneau, Alaska, Public Buildings Service,
                      Region 10

10/23/92   A23639     Limited Audit of Information Resources Management
                      Service's Fiscal Year 1992 Section 2 Assurance
                      Statement, National Capital Region

10/27/92   A22538     Audit of Time and Attendance, PBS Contracts Division,
                      Region 9

10/28/92   A22179     Limited Audit of the Regional Administrator's Fiscal
                      Year 1992 Section 2 Assurance Statement, Region 7

11/10/92   A23073     Limited Audit of the Federal Property Resources Service,
                      Fiscal Year 1992 Section 2, Assurance Statement

11/13/92   A23640     Limited Audit of Information Resources Management
                      Service's Fiscal Year 1992, Section 2 Assurance
                      Statement

11/13/92   A23641     Limited Audit of the Fiscal Year 1992 Section 2,
                      Assurance Statement for the Office of FTS2000

11/17/92   A20336     Review of Printing Plant Operations in Region 1

11/17/92   A23071     Limited Audit of the Public Buildings Service, Fiscal
                      Year 1992 Section 2 Assurance Statement

11/17/92   A23353     Limited Audit of Federal Supply Service's Fiscal
                      Year 1992 Section 2 Assurance Statement

11/18/92   A21886     Audit of Imprest Fund Operations, Public Buildings
                      Service Field Location, Columbia, Missouri

11/18/92   A32703     Limited Audit of the Office of the Chief Financial Officer's
                      Fiscal Year 1992 Section 2 Assurance Statement

11/23/92   A32705     Limited Audit of the Office of Administration's Fiscal
                      Year 1992 Section 2 Assurance Statement

11/30/92   A32406     Audit of Imprest Fund: 525 Market Street, San
                      Francisco, California, Region 9

12/07/92   A22432     Audit of Time and Attendance, Sansome Street Field
                      Office, San Francisco, California, Region 9



                                                                                     Office of Inspector General 45
                     Appendix // . . . Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                  Funds To      Questioned
Date of     Audit                                                                 Be Put To    (Unsupported)
Report      Number                             Title                              Better Use       Costs

12/14/92    A81027      Multi-Agency Review of Employee Relocation Practices
                        and Procedures

12/16/92    A21563     Audit of Imprest Fund, Cleveland Field Office, Region 5

12/22/92    A21560      Review of Imprest Fund, Loop Field Office, Chicago,
                        Illinois

12/23/92    A32702      Limited Audit of the General Services Administration's
                        Compliance with the Byrd Amendment Restrictions on
                        Lobbying Activities

12/23/92    A32704      Limited Audit of the Federal Managers' Financial
                        Integrity Act, Section 4, Office of the Chief Financial
                        Officer's Fiscal Year 1992 Assurance Statement

12/24/92    A32404     Audit of Imprest Fund: Sacramento Field Office,
                       Region 9

12/29/92   A30917      Audit of Imprest Fund, East Philadelphia Field Office,
                       Philadelphia, PA

01/07/93   A32411      Audit of Imprest Fund: West Los Angeles Field Office,
                       Region 9

01/13/93   A21844      Audit of GSA's Processing of Employee Benefit                              $71,379
                       Transactions

01/29/93   A22512      Audit of Printing Plant Operations, Federal Building &
                       USPO, Juneau, Alaska, Office of Administration,
                       Region 9

02/12/93   A11518      Audit of GSA's Personnel Suitability and Security
                       Procedures and Practices for Noncareer SES and
                       Schedule C Appointees

02/12/93   A30616      Review of the Imprest Fund at the Real Property
                       Management and Safety Division, Greater Manhattan
                       Field Office

02/18/93   A30615      Review of the Imprest Fund at the Real Property
                       Management and Safety Division, New Jersey Field Office

03/11/93   A21576      Audit of Imprest Fund, Cincinnati Field Office




46 Semiannual Report To The Congress
                      Appendix //- Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                                Funds To      Questioned
Date of      Audit                                                              Be Put To    (Unsupported)
Report       Number                           Title                             Better Use       Costs

03/16/93     A32119     Audit of Imprest Fund, Jeffco Field Office, Golden,
                        Colorado, Region 8

03/18/93     A22734     Audit of Controls Over Advisory and Assistance
                        Service Contracts for Fiscal Year 1992

03/24/93     A32403     Audit of Imprest Fund Number 1003, GSA Center,
                        Auburn, Washington

03/30/93     A32421     Audit ofImprest Fund: 350 South Figueroa Street, Fund
                        937, Los Angeles, California, Region 9

OTHER CONTRACT AUDITS
10 /27 /92   A23634     Audit of Subcontractor Report: American Telephone and
                        Telegraph Company, Contract Number GSOOK89
                        AHD0008

NON-GSA INTERNAL AUDITS
02/16/93     A33417     Audit of the United States Nuclear Waste Technical
                        Review Board




                                                                                Office of Inspector General 47
                             Appendix 111- Delinquent Debts

GSA's Office of the Chief Financial Officer provided the         "    Received the approval from the Office of General
following information:                                                Counsel to obtain social security numbers from
                                                                      debtors for use in the Internal Revenue Service Tax
                                                                      Refund Offset Program.
GSA Efforts to Improve Debt Collection
                                                                 •    Attended interagency forums given by the
During the period October 1, 1992 through 'March 31,                  Department of Justice and the Internal Revenue
1993, GSA efforts to improve debt collection and reduce               Service concerning debt collection and tax refund
the amount of debt written-off as uncollectible focused               offset.
on upgrading the collection function and enhancing debt
                                                                 •    Added enhancements to the personal computer-based
management. These activities included the following:                  claims system and on-line credit bureau report
..     Held a 3-day training session for personal property            inquiries.
       collection officers. The training emphasized the          "    Completed flowcharting the claims and collection
       personal liability of collection officers and presented        process in our Region 6 Finance Division to make the
       ways to safeguard collections, which will minimize             process more efficient and productive.
       losses and the resulting claims against the collection    •    Issued formal written policy and procedures for debt
       officers.                                                      collection and writeoffs.




Non-Federal Accounts Receivable

                                                          As of                  As of
                                                     October 1, 1992         March 31, 1993            Difference

     Total Amounts Due GSA                             $40,731,4 73             $47,560,156            $6,828,683
     Amount Delinquent                                 $20,202,145             $19,836,129             $ (366,016)

     Total Amount Written
     Off as Uncollectible
     Between 10/1/92 and
     3/31/93                                               $623,431



Of the total amounts due GSA and the amounts                     $2.8 million and $2.7 million, respectively, are being
delinquent as of October 1, 1992 and March 31, 1993,             disputed.




48 Semiannual Report To The Congress
                      Appendix IV -- Reporting Requirements

The table below cross-references the reporting require-                            in Senate Report No. 96-829 relative to the 1980
ments prescribed by the Inspector General Act of 1978,                             Supplemental Appropriations and Rescission Bill is
as amended, to the specific pages where they are                                   also cross-referenced to the appropriate page of the
addressed. The information requested by the Congress                               report.



                                                       Requirement                                                                                  Page
 Inspector General Act
      Section 4(a)(2)-Review of Legislation and Regulations ......................................................................... 15

      Section 5(a)(I)-Significant Problems, Abuses, and Deficiencies ........................................................... 3,7

      Section 5(a)(2)-Recommendations With Respect to Significant Problems, Abuses,
        and Deficiencies .............................................................................................................................. 3,7

      Section 5(a)(3)-Prior Recommendations Not Yet Implemented ............................................................ 23

      Section 5(a)(4)-Matters Referred to Prosecutive Authorities ................................................................. 19

      Sections 5(a)(5) and6(b)(2)-Summary ofInstances Where Information Was Refused ...................... :.. None

      Section 5(a)(6)-List of Audit Reports .................................................................................................... 25

      Section 5(a)(7)-Summary of Each Particularly Significant Report ....................................................... 3,7

      Section 5(a)(8)-Statistical Tables on Management Decisions on Questioned Costs ............................. 18

      Section 5(a)(9)-8tatistical Tables on Management Decisions on Recommendations
        That Funds Be Put to Better Use ..................................................................................................... 17

      Section 5(a)( 1OJ-Summary of Each Audit Report Over 6 Months Old for Which No
        Management Decision Has Been Made ........................................................................................... None

      Section 5(a)(11)-Description and Explanation for Any Significant Revised
        Management Decision ..................................................................................................................... None

      Section 5(a)(12)-Information on Ally Significant Management Decisions With Which
        the Inspector General Disagrees ..................................................................................................... None

 Senate Report No. 96-829
      Resolution of Audits ............................................................................................................................ 16

      Delinquent Debts ................................................................................................................................. 48




                                                                                                                        Office of Inspector General 49
                                       Notes




50 Semiannual Report To The Congress
                             pr
Federal Recycling Program . . . ,   Printed on Recycled Paper
